                                                    OFFICE OF INVESTIGATIONS

                                                 CLOSEOUT MEMORANDLTM




         OIG received information from NSF-DGA' indicating that a business2had filed for Chapter 7
         Bankruptcy protection and had identified NSF as a non-secured claim. Although no allegation of
         misconduct was indicated DGA's concerns were that this company had recently been awarded 2
         SBIR wards^ and had received 66% of the funds from each award. DGA added that it had sent
         the company a request for the return of the award funds but had not received any response from


         After reviewing the company's bankruptcy filing4 and the award jackets, interviewing key
         personnel associated with the companySand reviewing the issues with the United States
         Attorney's office it has been determined that no evidence of any wrongdoing on the part of the
         company has been identified. Based on the lack of any specific information to indicate the
         company fraudulently obtained or administered the awards no further action is warranted at this


         ~ c c o r d i n ~this
                           l ~ case
                               ,    is closed.




NSF 01G Form 2 (1 1/02)
